NO: 20 -766

IN THE SUPREME COURT OF THE UNITED STATES
MARCH 29th 2021
CASE NO.SC20-464
LT. CACE #17000822

DAVID ARCHER

Petitioner (s) Appiellant

v

WINN DIXIE STORES INC, et al.

Respondent (s) Appellee

ON PETITION FOR WRIT OF CERTIORARI TO THE SUPREME COURT
OF UNITED STATES OF AMERICA

PETITION FOR REHEARING

David D Archer . In propia persona Sui Juris
Of Records
7010 NW 89th Avenue
Tamarac Florida 33321.
(954) 297-5817
Matters of Merits “Great Public Importance” necessary and proper.
PROHIBITION, UNCONSTITUTIONAL AND DISCRIMINATION CIVIL CASE.

1 I Page

RECEIVED
APR - 5 2021
OFFICE OF THE CLERK
SUPREME COURT. U S.

A PEALED FROM THE FOURTH DISTRICT COURT OF APPEALS TO THE FLORIDA SUPREME
CASE No: SC20-464 AND THE ORDERS OF THE 17™ JUDICIAL CIRCUIT COURT OF FLORIDA,
IN AND FOR BROWARD COUNTY , CASE # CACE NO:, 17000822 (13) JUDGE MICHAEL A
ROBINSON ; 4D18-0080 [4D18-2305] [4D18-3539] AND [4D19-0335]

TABLE OF CONTENTS

Caption Of Contents

page 1

Table of Contents

page 2

Table Of Citations

page 2

Reasons to Grant Rearing

page 3.

Statement Of The Case preliminary.

page 6

Statement of facts

page 09

Certificate of good faith and merits

page 14

Conclusion

page14

Appendix

page15

Certificate of service

page15 .
Tables Of Citations

Bank one, NA, Vs. Batronie 884, So. 2d , 346, 348 (Fla 2nd DCA 2004)

page 4

Fla Philharmonica Orchestra, Inc. Vs .Bradford, 145 So 2d, 3d 892,894 (Fla 4th DCA 2014)..page 5
Dixie Stores Inc .V. Benton, 576 So. 2d 359, 360 (Fla DCA 1991)

page 6

EG, Frenz Enter, Inc Vs. Port Everglades, 746 So 2d. 498, 502 (Fla App. 1999)

page 6

State v. foley 193 So 3d 24, 26 (Fla 3rd DCA 2016)

page 6

Gibson Vs. Maloney 231, So 2d 823, 824 ( Fla 1970)

page 6

36 ART .V, section 3 (b) (4) of Fla Const, Pino V. Bank Of New York ( Fla DEC 8, 2011)

page 6

2 | Page

•A

Bell v. U.S.B. Acquisition Co, 734 So 2d, 403 (Fla 1999)

page 6

Reasons for Granting rehearing.
Petitioner’s motion for reconsideration to vacate the denied order of 02/22/21
for Writ of Certiorari, based upon controlling substantial supporting
circumstances pursuant to 28 U.S.C.455 (a) & (b) Certiorari Conundrum for
rehearing accordingly to U.S.C Rule 44.2 on distributed conference dated
02/19/2021 and the failure of Respondent to file a brief by the due date as directed.
There are several issues raised in the Tribunal and presented by Petitioner
before this United States Supreme Court to grant this motion for rehearing
overlooked by the courts of whether Respondent’s counsel is entitled to
awarded fees and cost for not filing any motions to strike, to dismiss or any
objections besides the untimely safe harbor excuse with expectations that counsel
will sufficiently demonstrate, why no motions were filed with excusable neglect
to avoid rehearing and default in the tribunal court as statues and rules so requires.
(Florida rules of civil procedures R 1.530. timely filed in the Tribunal bv
Petitioner)

3 | Page

Appendix A

Evidently, The duo Counsel and the Judge now is perceived and seems
to think, that this United Supreme Court will comprehend counsel’s and
the Judge inappropriate misconduct, who together failed by not giving
Petitioner hearing dates and further, by the Judge granting counsel all
Motions docketed

Appendix B

Accordingly, Petitioner asked the Judge to recuse himself from the
case, because of “conflict of interest or lack of impartiality” the judge own
dismissal of the case that lacked the jurisdiction of the tribunal actions,
once appealed and since “ under the umbrella” orders came from the
Fourth District Court of Appeals. The Judge actions should be reversed
and not be entertained by any court of law , given the irreparable harm
the duo relationship created . Which now cause for a full investigation in
compliance with Florida’s Constitution and states laws , that now is the
suitable time to persuade this court of appeals on issues never,
previously raised. Counsel for Respondent failure to state findings with
factual Appendix to collaborate any theory and not to merely rely on cited
cases, safe harbor defense and Counsel failure not in complying with the
4 | Page

orders of the court orders and motions, rehearing is warranted as filed
and should not be denied or records stricken from the records as
pertaining to amended orders and subject matter, dismissal of 11/26/18
01/07/19 and amended order on Attorney’s fees on Default filed on
05/17/17. The court refused to set a hearing on Default until pressured by
Petitioner, subsequently was heard on July 24th 2018 and denied after
arguments . Counsel is collecting propositions to illustrate the principle
subjects why counsel did not file appropriate motions prior to the appellate
process. Counsel failed to file and or respond to all motions filed by the
Petitioner in this Supreme Court on September 21,2020 and placed on the
docket on December 4, 2020 pursuant to rule 15.3 and did not file a brief in
opposition by the due date of January 4, 2021 and in fact is in default
pursuant to Applicable Federal R. Civ. P. Rules 55 (b) (1) and 56 (c) and
in the Tribunal Court,

5 | Page

Appendix C

PRELIMINARY STATEMENT
_ APPELLATE’S COURTS REVIEW FROM THE 17™ JUDICIAL
CIRCUIT COURT IN AND FOR BROWARD COUNTY FLORIDA.
This case was originally heard by the Honorable Judge William W.
Haury Jr, and for reasons stated herein Appellee Counsel was able
to have the case assigned to his friend Judge Michael A Robinson.
The duo first met years ago when the Judge went to the gas
Station for gas and the Judge forgot his credit card in the pump
Vending machine. Without hesitating, counsel drove and caught up
with the presiding Judge and did returned to him his property. Ever
since, the duo became friends. On January the 281h 2018 the eve of
the hearing counsel was able to have the Judge signed an order
and

E- Filed it, by entry docket as recorded that said instrument

was docked. (Other phone records and evidence will validate the
duo relationship)
01/08/2018. 4D18-0080 THIS MATTER CAME BEFORE THE
TRIBUNAL COURT ON WAGES CLAIM AND THE TRIBUNAL
6 | Pa ge

DENIED APPELLANT WITHOUT

PROPER

FINDINGS AND

FACTS OF LAW , CAUSING IRREPARABLE HARM AND
INJURIES BY NOT ALLOWING THE LOSS WAGES TO
APPELLANT . COUNSEL AND JUDGE ARE DUO FRIENDS.
THIS

COURT HYPOTHETICALLY DISMISSED THE APPEAL

WITHOUT OPINION. DISMISSED FOR LACK OF
JURISDICTION AND DECLEARED IT MOOT ON 03/16/18.
CONSOLIDATED 03/11/2019 BY PARTIES AS AGREED.
(1) 07/31/2018. 4D18-2305 THIS MATTER CAME BEFORE THE
TRIBUNAL COURT ON MOTION AS REJECETED BY THE
COURT AND DENIED, WHEREBY, AT ISSUE WAS DEFAULT
AND SANCTIONS BASED ON DENIED DEFAULT. THIS
COURT ON 10/04/2018 DENIED IN PART; APPELLEE’S
MOTION AS STATED “THE MOTION IS DENIED AS TO
THE ORDER GRANTING THE MOTION FOR ATTORNEY’S
FEES AND COST”. Bank one, NA, v Batronie.884,So 2d, 346,
348 (Fla 2nd DCA 2004)
(2) BECAUSE OF THE DUO CONNETION , THE PARTIES
COUNSEL AND THE JUDGE BY FABRICATION SAW IT TO
ORCHESTRATE BY ACTION TO AND BY
MISREPRENSENTATION BY BOTH DECEPTION UPON THE
COURTS , BY KNOWINGLY AND INTENTIONALLY MAKING
7 | Page

FAULTS AND MISLEADING CONSPIRACY ACTS AND
ORDERS AS FILED ON 01/28/2018, A SUNDAY WHILE THE
COURT WAS CLOSED. WHEREAS, THE ORDER WAS
SIGNED BY THE JUDGE AND FILED BY THE ATTORNEY FOR
WINN DIXIE STORES. A MOTIONS TO ACHIEVED A “ WIN
AT ANY COST” . STATING THAT DEFAULT WAS DENIED
AND SANCTIONS PURSUANT TO 57.105 APPLIED UNDER
THE CIRCUMSTANCES. Fla Philharmonics Orchestra, Inc Vs. Bradford, 145
So . 2d 3d ,892,894.( Fla 4th DCA 2014)
.Appendix G
(3)11/29/18 . 4D18-3539 ORDER GRANTING RELINQUISHMENT
DATED 12/17/2018 ORDER OF DISMISSAL . THIS
APPELLATE COURT DEMANDED AN ANMENDED ORDER ON
NOVEMBER 5™ 2018 SEEKING FACTUAL PROOF AS
REQUIREMENTS TO THE TRIBUNAL EVIDENCE IN
REQUESTING FEES AND TO STATE THE FACTS, VERIFYING
THE PRESCRIBED NATURE OF THE DETERMINATION OF
CONCLUSTION OF THE COURT S DECISSION TO GRANT
APPELLEE S FEES AS SANCTIONS.
(4) 4D18-2305, INSTEAD OF THE TRIBUNAL COURT
COMPLYING WITH THE APPELLATE’S COURT’S
INSTRUCTIONS, THE LOWER COURT DISMISSED THE CASE
ON 11/26/2018 ON ITS OWN WITHOUT PROPER MOTION,
DESPITE APPELLANT’S MOTION TO STAY AND
SUBSEQUENTLY , THIS COURT ERRED BY ALLOWING THE
TRIBUNAL TO AMEND NOT BY AUTHORIZATION AN
UNAUTHORIZED AMENDED ORDER, NOT IN COMPLIANCE
OF THE DATED NOVEMBER 05,2018; AS INSTRUCTED BY
ORDER. THE AMENDED ORDER DID FAILED TO COMPLY
WITH THE APPELLATE COURT ORDER IN TERMS OF
EVIDENCE OF THE REQUISITE FACTUAL FINDINGS.
8|Page

WHEREBY, THE AMENDED ORDER DID NOT MEET THE
EXPECTED RESULTS DEMANDED BY THE APPELLATE
ORDER. DESPITE APPELLANT’S MOTION TO STAY. Art v,
Section 3 (b) (4) Fia Const. .
(5) 4D18-3539 THIS COURT SHOULD PREVENT IRREPARABLE
HARM CAUSE BY THE JUDGE AND COUNSEL .Dixie stores, me.
Vs. Benton, 576 So. 2d .359, 360, (fla DCA 1991) EG Frenz Enter, Inc V. Port
everglade, 746 So 2d 498, 502 (Fla Dist APP. 1999) SG6; state v. foley 193 So 3d 24,26
(Fla 3rd DCA. 2016) see; Gibson v. Maloney 231, So . 2d 823,824 (Fla 1970) 36 ART, V.
SECTION 3(B) (4) OF FLA CONST, PINO V. BANK OF NEW YORK (Fla DEC 8 2011)

(6) The Florida Supreme Court in its orders and final order of
06/25/2020 , realizing unconstitutional misconduct and its
jurisdiction as not authorized, recognized the lack of power
to enforced the duty to correct wrong doing by the duo
Counsel and the Judge. Knowingly knew that this United
States Supreme Court with Authority, would be the court to
inevitably sanction the judge and counsel for not complying
with their oath of duties as expected during the course of
work duties.
Appendix H

Statement of the case and facts

(1)

On January 17th 2013, Appellant was an invitee, occupied by the

Respondent as stated in the complaint filed in the 17th Judicial circuit
court in and for Broward County of the State of Florida on January 12th,
2017. Respondent was properly served.
9 | Page

(2) On January 30th 2017 Defendant Winn Dixie Stores Inc, Moved to
dismiss the Complaint in which originally, the Honorable Judge William
W. Haury JR , presided over the case.

(3) On March 16th 2017 Appellant filed Plaintiff’s David Archer Reply in
Opposition to Defendant’s (Winn Dixie Stores Inc) Motion to Dismiss
Plaintiff’s Complaint
(4) On April 17,h 2017 Appellant Amended the complaint Pursuant Fla
Civ P.1.190.
(5) On April 20th 2017 The Honorable Judge William W. Haury JR.
Granted leave to the Amended Complaint pursuant to the Applicable Laws
With instructions to both Parties to the attached Amended Complaint
Granted Motion Filed on April 17th 2017.
(6) FLA. R. CIV P. 1.190. in part “ Otherwise a party mav amend a
pleading only bv leave of the Court or bv written consent of the
adverse party” A part shall plead in response to an amended pleading
within (10) ten Days after service of the amended Pleading. UNLESS
THE COURT OTHERWISE ORDER.
Appendix F
(7) Respondent failed to comply as ordered on 04/20/ 2017 by The
10 | P a g e

HONORABLE JUDGE WILLIAM W . HAURY JR and subsequently to the
reminder during the 05/01/2017 hearing held on Plaintiff’s motion to
appoint new Counsel for Appellant. Despite the warning from the court
Counsel failed to request and or seek according to law an enlargement
of time, in which there is absolutely no automatic extension of time that
allows and or protects any Counsel from excusable neglect.

IRREPARABLE HARM BY DUO NEW JUDGE AND COUNSEL
(8) Appellant filed for Default Entry under The Honorable Judge William
W Haury JR , for all unknown reasons Previous Counsels, Wesley Catri
Jr and Attorney Holton were replaced by the father Wesley Catri Sr, who
is well versed and failed to show excusable neglect, instead use his
friendship with the judge to avoid entry of default,
1.090 (a) & (b) (1) and (2) of the rules,

about Fla R. Civ. P.
Appendix E

The two whom still remains “ duo “ personal friends .Wesley Catri Sr. and
The Honorable Michael A Robinson became apparent .after Wesley
Catri Sr. first met with the judge years go; Michael A Robinson went to a
11 | P a g e

Gas station for Gas and forgot his credit Card in the vending machine,
whereby, Attorney Catri drove and caught up with The Judge. Michael A
Robinson and returned to him . the card. Ever since the Duo became best
of friends. Said judge, refused to allow his judicial assistance to give
Appellant any hearing dates or fair trial in this case. In light of the matter.
Appellant was forced to asked the Judge to recuse himself, which the
Judge denied Appellant’s request to recuse himself when
Demanded bv Appellant to do so under the circumstances that “Trial bv
Ambush ” obviously became inevitable. Appellant was refused hearing
dates on all motion and was told BY THE JUDICIAL ASSISTANT OF THE
JUDGE MICHAEL A ROBINSON “THE JUDGE HAS TO GIVE IT TO
YOU ” THE RECORD WILL SHOW THAT ALL HEARINGS WAS DONE
OR MADE BY COUNSEL WITHOUT ADDING APPELLANT’S MOTION
TO THE CALENDER DATE SET.
the Prescribed Procedures Under Fla R.Jud. Admin 2.160 (d) (1) and Fla
Statue section 38.10.

F R . civ p 1.500 default or rehearing by this

Supreme Court should be entered against Respondent in the sum of
$7,000,000.00 and or this case be remanded for rehearing on damages.
Matters of interest certified as “great public importance “ this cause calls
For Justice.
Appendix D
12 | P a g e

Conclusion
For the foregoing Rehearing reasons based on Florida’s laws and statutes
F.R.C.P .Rule 1.530 on rehearing; Petitioner David D Archer Respectfully
Requests that the Honorable Justices of this High Court Overturn the denied
Prohibition Order stated as “Not Authorized” order of the Florida’s Supreme
Court, of way of this Court having comprehensive authority to remand and or
vacating entries by granting Its order for rehearing for Damages with the
original Judge : The Honorable William A Haury Jr,

Respectfully Submitted on this 29th Day of March 2021

David D Archer .Petitioner / In Propia Persona Sui Juris

7010 NW 89th Avenue
Tamarac, Florida. 33321.
954-297-5817

13 | P a g e

CERTIFICATE OF GOOD FAITH.

This is to verify that by no means or bad intention that this Petition by David
D Archer the undersigned Petitioner as filed was designed to cause delays,
but to only seeks this case to be decided on the merits and justice by justices
as presented not to delay this rehearing.
Respect]

submitted on this 29th Day of March 2021.
f/)

rc
By
DavidD Archer. Petitioner /In Propia Persona Sui Juris
7010 NW 89th Avenue Tamarac
Florida, 33321.
APPENDIX.
A.... page
B
page
C...... page
D...... page
E...... page
F.......page
G...... page
H
page

14 | P a g e

Additional material
from this filing is
available in the
Clerk's Office.

